TRULINCS 69451050 - THIEME, CHRISTOPHER - Unit: FTD-Q-B

FROM: 69451050 THIEME, CHRISTOPHER
TO:
SUBJECT: SCOTUS 2255 - Proof of Service
DATE: 09/27/2020 08:47 PM
CHRISTOPHER THIEME
Reg. No. 69451-050
FCI FORT DIX
Federal Correctional Institution
Post Office Box 2000
Joint Base MDL, New Jersey 08640
PETITIONER PRO SE - ** PRESENTLY CONFINED **
No.
IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTOPHER THIEME - Petitioner

v.
UNITED STATES OF AMERICA - Respondent
** PROOF OF SERVICE **
I, CHRISTOPHER THIEME, do swear or declare that on this date, Ofkokt< ? j 'IjDUO
as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by giving envelopes containing the
above documents to a member of my unit team staff at FCI FORT DIX for depositing in the United States
mail that were properly addressed to each of them with first-class postage prepaid affixed thereunto. The
names and addresses of those served are as follows:
1.) Solicitor General of the United States, Room 5614, U.S. Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001; and
2.) Mark E. Coyne and Leah Gould, Office of the United States Attorney, District of New Jersey, 970
Broad Street - Room 700, Newark, New Jersey 07102.
.
DECLARATION PURSUANT TO 28 U.S.C. 1746
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Odohr^

%

4 , 2020.

CHRISTOPHER THlEt
PETITIONER PR© SE

